Peace Corps
Office of Inspector General




 Peace Corps/Guatemala Office in Antigua, Guatemala




                 Flag of Guatemala


     Final Audit Report:
   Peace Corps/Guatemala
         IG-09-04-A

                                                  January 2009
  Final Audit Report:
Peace Corps/Guatemala
      IG-09-04-A




____________________________________
         Gerald P. Montoya
Assistant Inspector General for Audit




          January 2009
                               EXECUTIVE SUMMARY

We found that Peace Corps/Guatemala’s financial and administrative operations were not
functioning effectively and did not fully comply with agency policy and federal
regulations. We identified several areas that need improvement. Some of the more
important findings are summarized below.

Billings and Collections
Collections from Volunteer living allowance refunds were not recorded in the accounting
system with a bill of collection (BOC). As a result, refunds of Volunteer allowances
totaling $6,911.61 are unaccountable. Also, funds being kept outside of the imprest fund
were vulnerable to loss and misappropriation.

Volunteer Support
The post did not send Volunteer termination notifications in a timely manner.
Notifications are needed in order to compensate Volunteers in a timely manner once
service is completed.

Personal Services Contracts
The post did not seek authority from the Chief Acquisition Officer to pay benefits in
excess of what is required by the local compensation plan. As a result, the post was
incurring unnecessary payroll costs of over $50,000 annually.

Property Management
The post did not maintain accurate property inventory records.

Medical Supplies and Pharmaceuticals
The post did not maintain adequate medical supply records for all pharmaceuticals
including performing the necessary inventory verifications.

The section “Post Staffing” includes a summary of comments from post staff and
Volunteers whom we interviewed.

Our report contains 21 recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.




Final Audit Report: Peace Corps/Guatemala                                               i
                                             TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................................... i

INTRODUCTION .................................................................................................................... 1

AUDIT RESULTS ................................................................................................................... 1

     BILLINGS AND COLLECTIONS.................................................................................................... 3

     VOLUNTEER ALLOWANCES....................................................................................................... 7

     PERSONAL SERVICES CONTRACTS ............................................................................................ 8

     IMPREST FUND ........................................................................................................................ 11

     PROPERTY MANAGEMENT ...................................................................................................... 12

     MEDICAL SUPPLIES ................................................................................................................. 13

     IT SECURITY ........................................................................................................................... 14

POST STAFFING .................................................................................................................. 15

LIST OF RECOMMENDATIONS ............................................................................................. 16

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                      INTRODUCTION

The Office of Inspector General conducted an audit of Peace Corps/Guatemala December
28 – February 15, 2008. Additionally, the audit field work was extended through July
2008 to provide audit support to our investigative division. We previously conducted an
audit of the post, and the report was issued October 8, 2003 (IG-03-03-AE).

More than 4,500 Volunteers have served in Guatemala since the arrival of the first group
in 1963, and they have provided community development assistance in rural and poor
areas. At the time of our review, approximately 175 Peace Corps Volunteers were
working with public and private institutions, providing assistance through projects in
agriculture, environment, health, municipal development, and youth sectors.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complying with Peace Corps
policies and federal regulations. Appendix A provides a full description of our audit
objective, scope, and methodology.



                                     AUDIT RESULTS

Peace Corps/Guatemala financial and administrative operations were not operating
effectively. The post’s compliance with Peace Corps policies and federal regulations
needs improvement.

Billings and Collections
Collections from Volunteer living allowance refunds were not recorded in the accounting
system with a bill of collection (BOC). As a result, refunds of Volunteer allowances
totaling $6,911.61 are unaccountable. Also, funds being kept outside of the imprest fund
were vulnerable to loss and mismanagement.

Volunteer Support
The post did not send Volunteer termination notifications in a timely manner.
Notifications are needed in order to compensate Volunteers promptly after service has
been completed.

Personal Services Contracts
The post did not seek authority from the Chief Acquisition Officer to pay benefits in
excess of what is required by the local compensation plan. As a result, the post was
incurring unnecessary payroll costs of around $50,000 annually.




Final Audit Report: Peace Corps/Guatemala                                                  1
Property Management
The post did not maintain accurate property inventory records.

Medical Supplies and Pharmaceuticals
The post did not maintain adequate medical supply inventory records for all
pharmaceuticals and did not perform required inventory verifications.




Final Audit Report: Peace Corps/Guatemala                                     2
BILLINGS AND COLLECTIONS

Collections from Volunteer living allowance deposits were not recorded in the
accounting system with a bill of collection (BOC).

Peace Corps Manual (PCM) section 221.6.1.5 states:

        If there are any changes from the time the voucher and supporting list are
        prepared and the time the payment is received by the Volunteers’ bank
        (e.g., Volunteer terminates early or is medically evacuated, or the amount
        is incorrect), Post must prepare a Bill of Collection.

We found 29 instances where the post did not prepare bills of collection (BOCs) for
refunds from Volunteer living allowance deposits. A review of Volunteer allowances
paid October 2004 through January 2007, showed that $6,911.61 in refunds due the
Peace Corps were unaccountable. 1

In some cases, the refunds were collected in cash from individual Volunteers upon
completion of service or early termination of service. While in other instances, the post
obtained a refund check from the bank handling the Volunteer allowance accounts.

The condition found relating to the unaccountable funds occurred because there was a
complete breakdown in internal controls, responsible post staff failed to follow
established Peace Corps policies and procedures, and management did not provide
adequate oversight of the post’s financial activities. For example:

    •   There was inadequate separation of duties for billings, collections, and other
        critical financial and administrative processes. The administrative assistant was
        responsible for determining monthly allowance payments to Volunteers,
        preparing the monthly listings used to authorize allowance amounts to be
        deposited into individual Volunteer accounts, transmitting the listings to the bank,
        collecting cash refunds directly from Volunteers, and collecting check refunds
        from the bank.
        The administrative assistant should not have been performing duties associated
        with both the billing and collections officer functions. Only the cashier should be
        acting as the collections officer. Preparation of BOCs and entering them into
        FOR Post was being accomplished by another employee in the finance office.

    •   The administrative assistant was also responsible for handling the preparation of
        the checklist forms when Volunteers complete service (COS) or terminate their
        service early (ET). This form is used to document that Peace Corps property,
        including funds, held by departing Volunteers was returned to the Peace Corps.


1
 The total of unaccountable funds is calculated by adding $4,776.91 (bank-issued refund checks) and
$2,134.70 (cash refunds).


Final Audit Report: Peace Corps/Guatemala                                                             3
    •    This form also documents the amount of allowance refunds due and collected
         from Volunteers prior to leaving the post. We noted that several COS forms
         contained discrepancies between the amounts due and the amounts collected.
         Often times the amount due from Volunteers showed zero when a refund would
         have been due. Some checklist forms appeared to have been altered.

    •    The administrative assistant failed to prepare BOCs in a timely manner and in
         some cases they were not prepared at all. As a result, there was little
         accountability for the refunds.

    •    Management oversight of the post’s financial operations by the administrative
         officer was lacking. The administrative officer was not monitoring the billing and
         collection activities for Volunteer refunds. Even when deficiencies in the billing
         and collection process were brought to the administrative officer’s attention, she
         failed to take corrective action.

The administrative assistant admitted negligence in the handling of refunds but gave no
clear explanation for the unaccountable funds. The administrative officer and cashier
were also unable to provide a clear explanation for the unaccountable refunds.

Based on data examined, we were unable to determine whether the $4,776.91 in
unaccountable refunds made by bank-issued checks were payable to the U.S. disbursing
Officer (USDO) or to the administrative assistant. This is because the post did not
maintain adequate documentation to determine disposition of the bank refunds issued by
check and there was no record of such deposits in the USDO account. 2

Additionally, the cashier did not have any record of cash refunds totaling $2,134.70
collected directly from Volunteers ever being deposited into the imprest fund.

Any refunds of the Volunteer monthly living allowance deposits should be immediately
collected into the imprest fund or deposited into the post’s USDO account using a BOC.
Without a BOC and proper fiscal coding, there is no accountability for the funds, and as a
result, no assurance that collected funds are being credited to the appropriate obligations.
Further, the lack of accountability over such funds exposes the Peace Corps to the risks
associated with fraud, waste, and abuse.




2
  We attempted to obtain copies of the refund checks from the bank. Unfortunately, the bank had been
recently purchased by another financial institution, and the records we needed for verification were purged
or sent to storage. We waited several months to allow the bank time to research the status of these refunds;
however, they subsequently informed us that they were unable to provide any of the requested
documentation.


Final Audit Report: Peace Corps/Guatemala                                                                  4
                 We recommend:

                 1. That the country director ensure that the internal
                    controls over the billings and collections functions be
                    re-established and consistently followed to ensure the
                    accurate and timely collection of debts due the Peace
                    Corps and to improve accountability of Peace Corps
                    assets. Re-establishment of internal controls should be
                    formalized in writing, including actions taken to
                    prevent future loss of Peace Corps funds and any
                    planned future actions to strengthen internal controls.
                    These actions should include clearly defined separation
                    of duties and responsibilities related to paying
                    Volunteer allowances, preparing billings to recoup
                    excess living allowance refunds, establishing and
                    recording BOCs in FOR Post, processing Volunteer
                    COS and ET documentation, and specific controls to
                    ensure accurate, timely and complete collection of
                    funds due the Peace Corps from any source.

                 2. That the country director formally designate a billing
                    officer and provide clearly defined instructions to
                    ensure that all debts due to the Peace Corps are billed
                    and collected in a timely manner.

                 3. That the country director-designated billing officer
                    prepare a BOC for all reimbursements due to Peace
                    Corps, including refunds for Volunteers’ living
                    allowances. For refunds due from the bank, the billing
                    officer should prepare a BOC as soon as a refund is
                    identified. In cases where refunds are due directly from
                    Volunteers, the billing officer should establish a BOC
                    in FOR Post as soon as it is identified to document
                    accountability for funds due to the Peace Corps.

                 4. That the cashier immediately collect into the imprest
                    fund or the USDO account all reimbursements due to
                    Peace Corps, including refunds for Volunteers’ living
                    allowances.

                 5. That the administrative officer consistently monitor
                    billings and collection activities by performing monthly
                    reviews of Volunteer allowance deposits and verify that
                    any allowance refunds due the Peace Corps are
                    properly collected.



Final Audit Report: Peace Corps/Guatemala                                      5
                 6. That the administrative officer notify the country
                    director by email each month when they have verified
                    the accuracy of the billings and collections.


The administrative assistant was performing collection activities and
held funds outside of the imprest fund.

PCM section 221.6.1.7 states:

        If the total payment for Volunteer allowances by the bank or other
        institution exceeds the payment requirement due to an early termination
        (ET), administrative separation, early Close of Service (COS) or other
        change in the number/status of Volunteers, a collection should be made.
        The collection can be made by check, payable to the US Treasury or in
        cash, credited to the allowance obligation.

The administrative assistant stated that when the amount of the Volunteer living
allowance check deposited in a Volunteer’s account exceeded the actual amount the
Volunteer was entitled to receive, she would sometimes collect cash directly from
Volunteers (at the end of the Volunteer’s service) or in some cases, a refund check was
received from the bank. The administrative assistant maintained the cash and checks in a
drawer in the finance office separate from the imprest fund without proper accountability.

During the audit we documented that the administrative assistant received a $1,046.61
bank check comprised of three separate Volunteer allowance refunds that went
unrecorded for five months. The administrative assistant indicated to us that the bank
check was not cashed within 90 days and therefore expired. She told us that she
requested the bank reissue the check. The administrative assistant was unable to provide
a valid explanation for holding the check for five months before passing it to the cashier
for deposit. Our reconciliation of related accounts confirmed that although the $1,046.61
was ultimately accounted for, a timely deposit was not made in accordance with Peace
Corps policy.

In another example, the cashier stated that she noticed that the administrative assistant
was holding cash collected from Volunteers. According to the cashier, the administrative
assistant stated that she was holding cash until she could convert it to a check for deposit
into the imprest fund. The administrative assistant’s reasoning for holding the cash was
invalid since Peace Corps policy provides that such cash and checks should be promptly
deposited into the imprest fund. However, the cashier did not inform the administrative
officer or country director regarding the administrative assistant’s departure from policy.

Because of the mishandling of these funds, the BOC documentation and the associated
funds were not recorded or deposited into the imprest fund until five months after the




Final Audit Report: Peace Corps/Guatemala                                                  6
funds were received by the Peace Corps. As a result, accountability over these funds was
lacking and they were vulnerable to misappropriation.

The post should not maintain cash other than as recorded deposits in the imprest fund as
it presents a high risk situation for inappropriate allocation of funds, including fraudulent
use. In addition, until a BOC is created to recognize collection of debt there is no
accountability for the associated funds collected.


                 We recommend:

                 7. That the country director ensure that the cashier
                    immediately collects Volunteer living allowance refund
                    checks and related cash and promptly makes a deposit
                    into the imprest fund or the USDO account.

                 8. That the country director ensure that refunds from the
                    bank be made payable to the U.S. Disbursing Officer
                    rather than an employee.

                 9. That the country director take action to ensure that only
                    the cashier is authorized to collect funds.


VOLUNTEER ALLOWANCES

The post did not send Volunteer termination notifications in a timely manner.

OFMH section 16.5 requires that the post notify Volunteer and PSC Financial Services
within 24 hours (one business day) of a Volunteer’s completion of service (COS) or early
termination (ET). A final readjustment allowance payment is made to the Volunteer by
check or electronic fund transfer within 3 - 6 weeks of the Volunteer’s COS or ET date.

A review of 20 Volunteer termination notifications disclosed that 10 were sent to Peace
Corps headquarters beyond the 24-hour time frame.

The executive secretary, who was responsible for sending the documents, stated that she
sent the information to Peace Corps headquarters as soon as she received it. She further
explained that the delay existed in her receiving the information from other staff
members and that she often received Volunteers’ COS/ET checklists several days after
the COS/ET date.

It is important that the post send termination notifications (formerly known as COS or ET
cable) within 24 hours because any delays in receipting of the termination document at
headquarters impacts the Peace Corps’ progress in the timely processing and issuance of
final readjustment allowances to Volunteers.


Final Audit Report: Peace Corps/Guatemala                                                   7
                 We recommend:

                 10. That the country director establish a process so that the
                     information required for termination cables is provided
                     timely to the person responsible for sending the
                     documents to Peace Corps headquarters.


PERSONAL SERVICES CONTRACTS

The post did not seek approval from the Chief Acquisition Officer to pay salary benefits
in excess of what is required by local compensation plan.

PCM section 743.10.4.3 states:

        …the Country Director may not deviate from benefits in the LCP [local
        compensation plan] (deleting, adding or modifying a benefit) without an
        exception approved by the HCA [Head of the Contracting Activity/ Chief
        Acquisition Officer]. A Country Director may request an exception from
        the HCA.

A review of 28 personal services contracts (PSC) showed that employees were being paid
salary benefits that averaged 7.6% above authorized the local compensation plan salary
amounts. This additional amount was labeled “other benefits.” We verified that the
practice began in FY 2004 when the post ceased paying severance pay at the end of each
contract period since it was contrary to federal contracting regulations. The
administrative officer stated that rationale to justify the extra pay at the time was to
minimize potential claims by employees because of an interpretation in the local
employment laws. However, the documentation provided did not appear to support her
justification for the additional salary benefits. As a result of this practice, for FY 2007
the unnecessary payments to PSCs amounted to $53,011.85. Over the period October 1,
2003 through September 30, 2007 the post paid $195,418.60 in unnecessary salary
benefits.

The country director indicated to us that he was unaware that the contract salary benefits
were not in accordance with current Peace Corps policy guidelines. He was also not
aware of the need to seek authority for a deviation from the LCP. He subsequently
agreed that the additional salary benefits should not be paid and initiated action to adjust
contract salaries accordingly.

As a general policy, benefits for local hire PSCs should be aligned with the benefits in
the LCP in accordance with PCM section 743.10.4.1. The post should always provide
justification for any deviations from the LCP-authorized benefits. Lack of proper



Final Audit Report: Peace Corps/Guatemala                                                      8
justification for exceptions to policy related to PSC payroll may result in unnecessary
expenditure of Peace Corps funds.


                 We recommend:

                 11. That the country director review the benefits paid to
                     PSCs to ensure that they are in line with the local
                     compensation plan.

                 12. That the country director receive approval from the
                     Chief Acquisition Officer prior to paying salary
                     benefits in excess of what is required by the local
                     compensation plan.


PSC files did not contain intelligence background information certification forms.

PCM section 743.8.1 states:

        Personal Services Contractors are subject to the policy and eligibility
        standards set forth in Peace Corps Manual Section 611 concerning
        eligibility of applicants with intelligence backgrounds. … Prospective
        PSCs are required to complete the Intelligence Background form provided
        as Attachment A to Manual Section 611, in addition to being certified
        through the appropriate security clearance process.

None of the 16 PSC files reviewed contained completed intelligence background
information certification forms. The administrative officer told us that he believed that
the forms were misfiled. Our audit disclosed that the contract files were poorly
organized, incomplete, and may have contributed to the condition found.

It is important for Peace Corps to obtain and maintain completed intelligence background
information certification forms for all prospective PSCs because agency policy dictates
that individuals who have prior connections with intelligence activities through
employment, related work, or even family relations may be ineligible for a personal
services contract.




Final Audit Report: Peace Corps/Guatemala                                                   9
                 We recommend:

                 13. That the country director ensure that all staff members
                     have completed intelligence background information
                     certification forms maintained on file in accordance
                     with Peace Corps policy.


Several PSC files were missing a statement of work.

PCM section 743.9.4 states:

        Before soliciting for a Personal Services Contract award, a written
        detailed statement of work and a statement of required minimum
        qualifications covering duties to be performed shall be prepared. A copy
        of the statement of work and required minimum qualifications shall be
        provided to potential candidates.

We found that 10 of the 28 PSC files reviewed did not contain statements of work.
During the audit, two statements of work were subsequently located and included in the
files.

Statements of work are essential to the contract as it documents an understanding of the
work to be performed and Peace Corps policy requires they be included with the PSC
files.


                 We recommend:

                 14. That in accordance with Peace Corps policy, the
                     administrative officer ensure that a statement of work is
                     always included within the personal services contract
                     files.


PSC performance evaluations were not completed in accordance with Peace Corps
policy.

PCM section 743.19 states:
        It is U.S. Government policy that a PSC's performance be evaluated
        during and at the completion of each contract. … All PSCs will be
        evaluated by the country director, or another Peace Corps employee
        designated by the country director, during and at the completion of their
        in-country work.




Final Audit Report: Peace Corps/Guatemala                                                  10
        A copy of the evaluation should be maintained by the Country Director
        with copies forwarded to the Regional Training Officers or Programming
        and Training Advisors, Program Officers or Director of Medical Services,
        as appropriate depending upon the nature of the contracted services.

We were unable to verify that nine PSC contract files reviewed contained a recent annual
performance evaluation. There is a possibility that the evaluations had been completed;
however, the documentation that we required to determine whether the evaluations had
been done could not be found because of the poor condition of the contract files. The
administrative officer acknowledged the poor condition of the files and indicated that the
required evaluations may not have been conducted.

Evaluations are an important tool in documenting staff performance, assist in identifying
areas where training is needed, and are useful in management decision making regarding
retention of PSCs. The evaluations should always be performed upon the completion of
each contract period and included in the PSC’s file.


                 We recommend:

                 15. That the country director or other designated supervisor
                     conduct annual performance appraisals of all Peace
                     Corps staff members and ensure that copies be included
                     in their files.


IMPREST FUND

The cashier did not personally set the combination to the imprest fund safe.

PCM section 760.9.4 requires that the cashier personally set the combination and change
it at least annually. The policy states: “The security officer or technician is not allowed
to set or know the combination to the safe.”

There was no documentation on when the imprest fund safe combination was last
changed. The cashier stated that she did not know when the last time the safe
combination was reset.

Having the cashier as the sole person who sets the combination and changes it at least
annually reflects the cashier’s responsibility for safeguarding the contents of the imprest
fund and emphasizes personal accountability for its contents.




Final Audit Report: Peace Corps/Guatemala                                                 11
                 We recommend:

                 16. That the country director request an Embassy RSO
                     representative provide training to the cashier on how to
                     change the safe combination.


PROPERTY MANAGEMENT

The post did not maintain accurate property inventory records and there was no
assurance that required inventory verification was being performed on an annual
basis.

PCM section 511 describes the procedures for maintaining an accurate inventory record.
PCM section 511.4.0 states: “The Property Officer is responsible for receiving and
properly recording new property (including acquisition cost) in the property management
database.”

Further, PCM section 511.5.2 requires that an inventory verification be performed at least
once a year.

We reviewed the property inventory listing and noted that the list did not contain the
location of the property. Nevertheless, we attempted to validate the accuracy of the
post’s inventory records and quickly discovered that many of the items could not be
readily located for verification. We also could not determine when the post had last
completed their annual physical inventory.

We noted that the staff responsible for property management did not have a clear
understanding of the purpose of accurate property records.

Accurate and complete inventory records along with periodic physical inventory
verifications are essential to effective accountability over property and minimize risks of
Peace Corps assets being subjected to fraud and abuse.


                 We recommend:

                 17. That the country director ensure that a complete
                     property physical inventory be conducted and the post’s
                     property records be updated accordingly.

                 18. That the country director ensure that the necessary
                     training be arranged for staff members responsible for
                     inventory verification on the software program used to
                     record and track inventory.



Final Audit Report: Peace Corps/Guatemala                                                 12
MEDICAL SUPPLIES

The post did not maintain adequate medical supply records for all pharmaceuticals
including performing the necessary inventory verifications.

PCM section 734.2.1.6 states that:
        The PCMO/PCMC [Peace Corps Medical Officer/Peace Corps medical
        contractor] must maintain medical supply records for all pharmaceuticals,
        controlled substances, and expendable supplies. This inventory control
        system may be maintained in manual or automated form. (PC is in the
        process of implementing a standard inventory control system).
        The PCMO/PCMC is responsible for establishing the accuracy of
        inventories, maintaining appropriate controls, and ensuring the proper
        usage of all medical supplies and equipment. A general inventory of
        supplies must be taken at least every month by the Country Director or
        designee. The PCMO/PCMC must inventory controlled medical
        substances monthly. The control of such items must be consistent with
        local and U.S. laws and regulations.

We noted that general inventory of medical supplies and pharmaceuticals were not being
maintained consistently. Additionally, monthly verification of the general inventory was
not being performed by the country director or designee. We also determined that
inventory of controlled substances were not performed monthly.

To comply with Peace Corps and other federal requirements, ensure that Volunteers
receive quality health care, and adequately safeguard assets it is essential that an accurate
and complete medical supplies inventory listing be consistently maintained. Further,
periodic inventory verification is important to maintaining integrity of the medical supply
inventory records.


                 We recommend:

                 19. That the PCMO establish and consistently maintain
                     accurate and complete inventory records for the post’s
                     medical supplies and pharmaceuticals.

                 20. That the country director or designee conduct the
                     required monthly verification of general inventory and
                     the PCMO perform monthly inventories of controlled
                     substances in accordance with Peace Corps policy and
                     other federal requirements.




Final Audit Report: Peace Corps/Guatemala                                                  13
IT SECURITY

The post did not monitor to ensure that all Volunteers and Trainees reviewed and
signed the mandatory IT security access agreement forms.

PCM section 543.2.4 states:

        V/Ts must review the mandatory guidelines set out in PCM 543.3.0, and
        sign the form in Attachment A verifying that they will abide by the
        guidelines for use of Peace Corps computer equipment.

The post’s IT security specialist did not know whether all Volunteers and Trainees were
signing the necessary IT security forms before granting access to Peace Corps computer
systems. When we requested verification that the forms were being signed, the IT
security specialist indicated that he could not confirm this without researching the status
of the forms. As a result, it was apparent that monitoring to ensure the forms were being
executed was not being consistently performed.

The purpose of Peace Corps policy requiring Volunteers and Trainees to review IT
security guidelines and signify they understand them by signing a form is to provide
some assurance that Peace Corps data is secure and computers are protected from viruses
and other cyber threats. The policy also defines appropriate uses of Peace Corps
computer equipment and specifies prohibited practices. Individuals that are unaware of
Peace Corps IT security guidelines may compromise data security or otherwise misuse
computer equipment.


                 We recommend:

                 21. That the IT security specialist ensure that all Volunteers
                     and Trainees have reviewed the IT security guidelines
                     set out in PCM section 543 and are signing the related
                     form prior to granting access to Peace Corps computer
                     systems.




Final Audit Report: Peace Corps/Guatemala                                                14
                                    POST STAFFING
At the time of our visit, the post had 42 staff positions: two U.S. direct hire employees,
two foreign service nationals, and 38 personal services contractors. In addition, a
regional Peace Corps Safety and Security Officer is stationed in Guatemala.

We interviewed five staff, including one U.S. direct hire and one Peace Corps Medical
Officer. They all stated that they very much enjoyed working for the Peace Corps;
however, several of them stated that there was a need for additional training of
administrative staff. Many staff members have been at the post for several years, and
some were returned Volunteers from Guatemala. In addition, the country director at the
time of our audit was in the process of leaving the Peace Corps to work for another
government agency, the staff appeared to be still adjusting to the plan to move to
facilities outside of Guatemala City.

                                  PC/Guatemala’s Positions
                                 Position                        Status
                Country Director                                 USDH
                Executive Secretary                               PSC
                Administrative Officer                            FSN
                Program and Training Officer                     USDH
                Training Director                                 PSC
                APCD/Municipal Development                        PSC
                APCD/Rural Home Preventive Health                 PSC
                APCD/Youth Development                            PSC
                APCD/Sustainable Rural Tourism                    PSC
                APCD/Healthy Schools                              PSC
                APCD/Sustainable Agriculture                      PSC
                Project Specialist (5)                            PSC
                Administrative Assistant (2)                      PSC
                Cashier                                           FSN
                IT Specialist                                     PSC
                Driver/Messenger (2)                              PSC
                Receptionist                                      PSC
                Janitor (2)                                       PSC
                Peace Corps Medical Officer (2)                   PSC
                Medical Secretary                                 PSC
                Safety and Security Coordinator                   PSC
                Language Coordinator (2)                          PSC
                Language Facilitators (7)                         PSC
                Technical Trainer                                 PSC
                Training Center Secretary                         PSC
                General Services Officer                          PSC
                Training Specialist                               PSC



Final Audit Report: Peace Corps/Guatemala                                                    15
                      LIST OF RECOMMENDATIONS
We recommend:

1.      That the country director ensure that the internal controls over the billings and
        collections functions be re-established and consistently followed to ensure the
        accurate and timely collection of debts due the Peace Corps and to improve
        accountability of Peace Corps assets. Re-establishment of internal controls
        should be formalized in writing, including actions taken to prevent future loss of
        Peace Corps funds and any planned future actions to strengthen internal controls.
        These actions should include clearly defined separation of duties and
        responsibilities related to paying Volunteer allowances, preparing billings to
        recoup excess living allowance refunds, establishing and recording BOCs in FOR
        Post, processing Volunteer COS and ET documentation, and specific controls to
        ensure accurate, timely and complete collection of funds due the Peace Corps
        from any source.

2.      That the country director formally designate a billing officer and provide clearly
        defined instructions to ensure that all debts due to the Peace Corps are billed and
        collected in a timely manner.

3.      That the country director-designated billing officer prepare a BOC for all
        reimbursements due to Peace Corps, including refunds for Volunteers’ living
        allowances. For refunds due from the bank, the billing officer should prepare a
        BOC as soon as a refund is identified. In cases where refunds are due directly
        from Volunteers, the billing officer should establish a BOC in FOR Post as soon
        as it is identified to document accountability for funds due to the Peace Corps.

4.      That the cashier immediately collect into the imprest fund or the USDO account
        all reimbursements due to Peace Corps, including refunds for Volunteers’ living
        allowances.

5.      That the administrative officer consistently monitor billings and collection
        activities by performing monthly reviews of Volunteer allowance deposits and
        verify that any allowance refunds due the Peace Corps are properly collected.

6.      That the administrative officer notify the country director by email each month
        when they have verified the accuracy of the billings and collections.

7.      That the country director ensure that the cashier immediately collects Volunteer
        living allowance refund checks and related cash and promptly makes a deposit
        into the imprest fund or the USDO account.




Final Audit Report: Peace Corps/Guatemala                                                  16
8.      That the country director ensure that refunds from the bank be made payable to
        the U.S. Disbursing Officer rather than an employee.

9.      That the country director take action to ensure that only the cashier is authorized
        to collect funds.

10.     That the country director establish a process so that the information required for
        termination cables is provided timely to the person responsible for sending the
        documents to Peace Corps headquarters.

11.     That the country director review the benefits paid to PSCs to ensure that they are
        in line with the local compensation plan.

12.     That the country director receive approval from the Chief Acquisition Officer
        prior to paying salary benefits in excess of what is required by the local
        compensation plan.

13.     That the country director ensure that all staff members have completed
        intelligence background information certification forms maintained on file in
        accordance with Peace Corps policy.

14.     That in accordance with Peace Corps policy, the administrative officer ensure that
        a statement of work is always included within the personal services contract files.

15.     That the country director or other designated supervisor conduct annual
        performance appraisals of all Peace Corps staff members and ensure that copies
        be included in their files.

16.     That the country director request an Embassy RSO representative provide training
        to the cashier on how to change the safe combination.

17.     That the country director ensure that a complete property physical inventory be
        conducted and the post’s property records be updated accordingly.

18.     That the country director ensure that the necessary training be arranged for staff
        members responsible for inventory verification on the software program used to
        record and track inventory.

19.     That the PCMO establish and consistently maintain accurate and complete
        inventory records for the post’s medical supplies and pharmaceuticals.

20.     That the country director or designee conduct the required monthly verification of
        general inventory and the PCMO perform monthly inventories of controlled
        substances in accordance with Peace Corps policy and other federal
        requirements..



Final Audit Report: Peace Corps/Guatemala                                                    17
21.     That the IT security specialist ensure that all Volunteers and Trainees have
        reviewed the IT security guidelines set out in PCM section 543 and are signing
        the related form prior to granting access to Peace Corps computer systems.




Final Audit Report: Peace Corps/Guatemala                                                18
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Guatemala covered fiscal years 2004, 2005, 2006, 2007, and
2008 through March 31, 2008. While at the post, we interviewed key staff: the country
director, the administrative officer, staff responsible for administrative support, and one
of the two medical officers. At the end of our audit, we briefed the country director and
administrative team. At headquarters, we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable in meeting our audit objective.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, current Peace Corps initiatives and policies,
and other federal regulations.
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To:            Kathy Buller, Inspector General

From:          Allene Zanger, Regional Director, Inter-America and Pacific

Date:          December 5, 2008

Subject:       Preliminary Report on the Audit of Peace Corps Guatemala

Enclosed please find the Regional response to the recommendations made by the
Inspector General for Peace Corps Guatemala, as outlined in the Preliminary Report on
the Audit of Peace Corps Guatemala.

The Region has concurred with 21 of 21 of the IG’s recommendations, and feels that its
program in Guatemala has been strengthened by this review.

The Region also appreciates the Inspector General's willingness to review and revise the
finding relating to the Miscellaneous Benefits for locally contracted PSCs. In 2003,
when this benefit was instituted, it was fully allowable under the policy in effect at that
time. This benefit was broadly discussed with the Office of Contracts and the Chief
Financial Officer, and the Region contends that it made sense at the time. Additionally,
many of the contracts awarded in 2003 were valid through 2008, so the Region maintains
that their terms were allowable through their expiration. We concur that any Personal
Services Contracts awarded after February 2005, when the policy changed, should not
have included this benefit without express approval of the Head of Contracting Authority.
Therefore we assert that the figure of $195,418.20 in questionable expenses is not
completely accurate. Subsequent to your audit and the February 2008 change in MS 743,
no PSC in Guatemala is receiving benefits that are not allowed under the local
compensation plan.

Thank you for the care and diligence displayed in the process of this audit.
     PEACE CORPS/ GUATEMALA


  RESPONSE TO THE SEPTEMBER 2008
    PRELIMINARY AUDIT REPORT
OF THE OFFICE OF INSPECTOR GENERAL
       LIST OF IG RECOMMENDATIONS WITH RESPONSES

Billings and Collections

1.     That the country director ensure that the internal controls over the billings
       and collections functions be re-established and consistently followed to
       ensure the accurate and timely collection of debts due the Peace Corps and to
       improve accountability of Peace Corps assets. Re-establishment of internal
       controls should be formalized in writing, including actions taken to prevent
       future loss of Peace Corps funds and any planned future actions to
       strengthen internal controls. These actions should include clearly defined
       separation of duties and responsibilities related to paying Volunteer
       allowances, preparing billings to recoup excess living allowance refunds,
       establishing and recording BOCs in FOR Post, processing Volunteer COS
       and ET documentation, and specific controls to ensure accurate, timely and
       complete collection of funds due the Peace Corps from any source.

       Concur: The administrative officer’s last day with Peace Corps Guatemala was
       March 18, 2008. Effective February 25, 2008, the duties involving Volunteer
       allowances done by the financial assistant cited in the audit report were
       transferred to a different financial assistant. This financial assistant prepares
       monthly allowance amounts for Volunteers and calculates amounts to be collected
       from the Volunteers or the bank due to ETs, change of COS date or other reasons.
       The new AO, now on board, is the billing officer, and prepares BOCs and enters
       them into FORPost. Cash collections and check refunds from the bank are
       handled by the cashier.

       Date of Completion: February 25, 2008 and ongoing;

       Documentation Submitted: 2 Memos from CD, Todd Sloan, from March 18, 2008
       and March 24, 2008 designating transfer of AO duties to the Acting AO, Ruby
       Flores. Memo from CD, Martha Keays, on November 10, 2008, delegating AO
       responsibilities to new AO, Lilian Monterroso. SOW for new AO, Lilian
       Monterroso, hired November 10, 2008.

2.     That the country director formally designate a billing officer and provide
       clearly defined instructions to ensure that all debts due to the Peace Corps
       are billed and collected in a timely manner.

       Concur: The AO was designated billing officer on February 14, 2008. Upon
       arriving in country June 16, 2008, the new CD designated the acting AO as billing
       officer. The new AO was designated billing officer November 10, 2008. She is
       aware of responsibilities of this position, as defined in the OFMH and PC Manual.

       Date of Completion: November 10, 2008 and ongoing.
     Documentation Submitted: Memo from CD, Martha Keays, on June 16, 2008
     designating Ruby Flores as Post Billing Officer. Memo from CD, Martha Keays,
     on November 10, 2008, designating the new AO, Lilian Monterroso, as the Post
     Billing Officer. SOW for new AO.

3.   That the country director-designated billing officer prepares a BOC for all
     reimbursements due to Peace Corps, including refunds for Volunteers’ living
     allowances. For refunds due from the bank, the billing office should prepare
     a BOC as soon as a refund is identified. In cases where refunds are due
     directly from Volunteers, the billing officer should establish a BOC in FOR
     Post as soon as it is identified to document accountability for funds due to the
     Peace Corps.

     Concur: As of February 14, 2008, the billing officer does these procedures.

     Date of Completion: February 14, 2008 and ongoing.

     Documentation Submitted: Memo from CD, Martha Keays, on June 16, 2008
     designating Ruby Flores as Post Billing Officer. Memo from CD, Martha Keays,
     on November 10, 2008, designating the new AO, Lilian Monterroso, as the Post
     Billing Officer. SOW for new AO.

4.   That the cashier immediately collect into the imprest fund or the USDO
     account all reimbursements due to Peace Corps, including refunds for
     Volunteers’ living allowances.

     Concur: As of March 18, 2008, the cashier is immediately collecting all
     reimbursements due Peace Corps. Between February 8, 2008 and March 18,
     2008, there were no collections made.

     Date of Completion: March 18, 2008 and ongoing.

     Documentation Submitted: Receipts of deposits and records of reimbursements to
     PC.

5.   That the administrative officer consistently monitor billings and collection
     activities by performing monthly reviews of Volunteer allowance deposits
     and verify that any allowance refunds due the Peace Corps are properly
     collected.

     Concur: The new AO, designated billing officer November 10, 2008, reviews
     billings and collections activities.

     Date of Completion: November 10, 2008 and ongoing.

     Documentation Submitted: SOW for new AO.
6.   That the administrative officer notify the country director by email each
     month when they have verified the accuracy of the billings and collections.

     Concur: The acting AO, designated billing officer June 16, 2008, notified the
     country director of the accuracy of the billings and collections until November 10,
     2008 when the new AO was designated billing officer and assumed this
     responsibility.

     Date of Completion: June 16, 2008 and ongoing.

     Documentation Submitted: Bill of Collections Log, 11.7.2008

7.   That the country director ensure that the cashier immediately collects
     Volunteer living allowance refund checks and related cash and promptly
     makes a deposit into the imprest fund or the USDO account.

     Concur: As of March 18, 2008, the cashier immediately collects refund checks
     and cash and deposits them appropriately.

     Date of Completion: March 18, 2008 and ongoing.

     Documents Submitted: Records of collections and Receipts of deposits.

8.   That the country director ensure that refunds from the bank be made
     payable to the U.S. Disbursing Officer rather than an employee.

     Concur: As of March 18, 2008, the bank issues refund checks made payable to
     the USDO.

     Date of Completion: March 18, 2008 and ongoing.

     Documents Submitted: 2 Copies of bank checks from the bank payable to the
     USDO.

9.   That the country director take action to ensure that only the cashier is
     authorized to collect funds.

     Concur: The cashier is designated the collections officer. The most recent
     delegation was June 16, 2008, upon arrival of the new country director.

     Date of Completion: June 16, 2008 and ongoing.

     Documents Submitted: Delegation of Authority by CD, Martha Keays, on June 16,
     2008 delegating Sonia de Gonzales as Cashier.
Volunteer Allowances

10.   That the country director establish a process so that the information
      required for termination cables is provided timely to the person responsible
      for sending the documents to Peace Corps headquarters.

      Concur: The cashier receives the completed termination checklist directly from
      the volunteer. The financial assistant then verifies all calculations are correct and
      gives the checklist to the executive secretary, who sends the termination
      notification within one business day of the COS or ET.

      Date of Completion: June 16, 2008 and ongoing.

      Documentation Submitted: Sample of PCV COS cable from 11.14.2008

Personal Service Contracts

11.   That the country director review the benefits paid to PSCs to ensure that
      they are in line with the local compensation plan.

      Concur: As of FY08, PSCs receive compensation and benefits according to the
      Local Compensation Plan. The first contracts date from December 2007.

      Date of Completion: December 2007 and ongoing.

      Documentation Submitted: FSN Compensation Plan from May 30, 2008. Sample
      PSC Statements of Payment for 3 PC/GT employees.

12.   That the country director receive approval from the Chief Acquisition
      Officer prior to paying salary benefits in excess of what is required by the
      local compensation plan.

      Concur: No PSCs are receiving benefits in excess of what is required by Local
      Compensation Plan.

      Date of Completion: December 2007 and ongoing.

      Documentation Submitted: FSN Compensation Plan from May 30, 2008. Sample
      PSC Statements of Payment for 3 PC/GT employees.


13.   That the country director ensure that all staff members have completed
      intelligence background information certification forms maintained on file in
      accordance with Peace Corps policy.
      Concur: As of September 10, 2008, all staff members have completed
      intelligence background information certification forms, which are in their
      personnel folders.

      Date of Completion: September 10, 2008 and ongoing.

      Documentation Submitted: Sample of SOPs, Supervisor Performance
      Evaluations and Intelligence Background Certification Forms for 3 PSC
      employees.

14.   That in accordance with Peace Corps policy, the administrative officer
      ensure that a statement of work is always included within the personal
      services contract files.

      Concur: As of September 10, 2008, all PSC files include an SOW.

      Date of Completion: September 10, 2008 and ongoing.

      Documentation Submitted: Sample of SOPs, Supervisor Performance
      Evaluations and Intelligence Background Certification Forms for 3 PSC
      employees.

15.   That the country director or other designated supervisor conduct annual
      performance appraisals of all Peace Corps staff members and ensure that
      copies be included in their files.

      Concur: All supervisors are aware of their responsibility to perform annual
      performance appraisals. Appraisals are presently being done for PSCs whose
      contracts are up for renewal.

      Date of Completion: November 17, 2008 and ongoing.

      Documentation Submitted: Sample of SOPs, Supervisor Performance
      Evaluations and Intelligence Background Certification Forms for 3 PSC
      employees.

Imprest Fund

16.   That the country director request an Embassy RSO representative provide
      training to the cashier on how to change the safe combination.

      Concur: A safe expert came to PC/G and taught the cashier how to reset the safe
      combination. The cashier reset the combination February 27, 2008. The safe
      combination was changed again November 6, 2008. She maintains a log,
      recording reset dates.
      Date of Completion: February 27, 2008 and ongoing.

      Documentation Submitted: Documentation on Safe Expert visit and safe
      combination change on November 6, 2008.

Property Management

17.   That the country director ensure that a complete property physical inventory
      be conducted and the post’s property records be updated accordingly.

      Concur: The post’s property records were updated for the PPIR inventory report
      due to HQ November 7, 2008. A complete property physical inventory will be
      completed by November 21, 2008 and records updated.

      Date of Completion: November 21, 2008

      Documentation Submitted: Copy of Physical Property Inventory report sent
      November 7, 2008.

18.   That the country director ensure that the necessary training be arranged for
      staff members responsible for inventory verification on the software
      program used to record and track inventory.

      Concur: The ITS will provide additional training to the GSO by November 21,
      2008 to enable accurate accounting of inventory.

      Date of Completion: November 21, 2008 and ongoing.

      Documentation Submitted: Training materials. Updated FRPP report.

Medical Supplies


19.   That the PCMO establish and consistently maintain accurate and complete
      inventory records for the post’s medical supplies and pharmaceuticals.

      Concur: The inventory system currently in use was developed for posts by OMS.
      Post has been informed that OMS is in the process of updating the inventory
      software and will put the new version in place as soon as it is released (estimated
      1st qtr. ‘09).

      Date of Completion: January 30, 2009 and ongoing.

      Documentation Submitted: Medical Inventory from November 13, 2008. Email
      explaining no inventory software has yet been received by Post.
20.   That the country director or designee conduct the required monthly
      verification of general inventory and the PCMO perform monthly
      inventories of controlled substances in accordance with Peace Corps policy
      and other federal requirements.

      Concur: Delegation of Authority by the Country Director was done October 10,
      2008 and post is performing the required periodic verification of inventories
      (general and controlled substances) in compliance with all policy and
      requirements.

      Date of Completion: October 10, 2008

      Documentation Submitted: Delegation of authority from October 10, 2008 for
      Medical Assistant, Ana Luisa de Solares, to conduct the required monthly
      verification of medical supplies inventory. Medical Inventory conducted
      November 13, 2008.

IT Security

21.   That the IT security specialist ensure that all Volunteers and Trainees have
      reviewed the IT security guidelines set out in PCM section 543 and are
      signing the related form prior to granting access to Peace Corps computer
      systems.

      Concur: Every PST has a session which includes IT security, during which the IT
      security access agreement forms are signed by the PCTs and subsequently put in
      their files.

      Date of Completion: February 18, 2008 and ongoing.

      Documentation Submitted: Copy of Internet Usage guidelines, IT security access
      agreement form signed by Volunteer on August 15, 2008.
APPENDIX C

                               OIG COMMENTS

Management concurred with all 21 recommendations made in our report and we closed all
recommendations.

In their response, the management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX D

             AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION
The audit was performed by Gerald P. Montoya.


OIG CONTACT
If you wish to comment on the quality or usefulness of this report to help us strengthen
our product, please e-mail Gerald P. Montoya, Assistant Inspector General for Audit, at
gmontoya@peacecorps.gov, or call him at (202) 692-2907.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915

Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
